No. 19-840

IN THE

Supreme Court of the United States
CALIFORNIA, et al.,
Petitioners,
v.
TEXAS, et al.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

AMICI CURIAE BRIEF OF
36 STATE HOSPITAL ASSOCIATIONS
IN SUPPORT OF PETITIONERS

AMENDED CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,649
words, including the appendix listing descriptions of individual amici, but otherwise excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 13, 2020 and amended on May 22, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

